               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Officer Compensation for
                Calendar Year 2011

                       Audit Report




                                              October 19, 2012

Report Number FT-AR-13-001
                                                                       October 19, 2012

                                                             Officer Compensation for
                                                                   Calendar Year 2011

                                                         Report Number FT-AR-13-001



BACKGROUND:
The Postal Accountability and                bonuses or other awards in excess of
Enhancement Act of 2006 (Postal Act of       the limitation. . .the Postal Service shall
2006) amended 39 U.S.C. and revised          make an appropriate request to the
the cap on total compensation payable        Board of Governors (Board), and the
to U.S. Postal Service employees.            Board shall approve any such request if
Employees generally could not be paid        the Board certifies. . .that the
more than $199,700 for calendar year         performance appraisal system. . .makes
(CY) 2011. Exceptions allowed some to        meaningful distinctions based on
be paid up to $230,700 (the statute          relative performance.”
defines the Postal Service’s authority to
award bonuses or other awards) or            The law also states, “Notwithstanding
$276,840 (for critical positions).           any other provision of law, the, Board
Compensation includes annual salary,         may allow up to 12 officers or
merit lump sum payments, bonuses,            employees of the Postal Service in
and awards. We determined whether            critical senior executive or equivalent
the Postal Service complied with the         positions to receive total compensation
Postal Act of 2006, its own policies and     in an amount not to exceed 120 percent
guidelines, and IRS regulations for          of the total annual compensation
CY 2011 officer compensation.                payable to the vice president. . . .The
                                             Board shall provide written notification to
WHAT THE OIG FOUND:                          the director of the Office of Personnel
We have a fundamental disagreement           Management (OPM) and the Congress
with the Postal Service on the proper        within 30 days after the payment is
interpretation of the compensation cap       made setting forth the name of the
provisions of this statute. According to     officer or employee involved, the critical
the law, “The Postal Service may             nature of his or her duties and
establish one or more programs to            responsibilities, and the basis for
provide bonuses or other rewards to          determining that such payment is
officers and employees of the Postal         warranted.”
Service in senior executive or equivalent
positions. Under any such program, the       We believe the compliance issues that
Postal Service may award a bonus or          we note in this report are a result of
other reward in excess of the limitation     management’s misinterpretation of the
set forth in the last sentence of 39 U.S.C   relevant statutory authority in the
§ 1003 (a), if such program has been         Postal Act of 2006. We identified
approved. . . .If the Postal Service         three officers whose compensation
wishes to have the authority to award        exceeded or otherwise failed to comply
with the compensation caps imposed by         award is set in advance by contract, we
the Postal Act of 2006 because:               believe it is neither part of an ‘appraisal
                                              system’ nor the result of any evaluation
   A reassignment incentive put one          of ‘relative performance.’ This change to
    officer over the Level I threshold, but   the language does not address the
    that incentive was not tied to the        concerns we raised last year.
    officer’s relative performance, nor
    was the officer in a designated           WHAT THE OIG RECOMMENDED:
    critical position.                        We recommended the postmaster
   Another officer received a straight       general coordinate with the Board to
    salary that exceeded the pay cap,         report a complete list of critical positions
    and that officer was not included in      and request an interpretation from the
    the required written list of critical     Government Accountability Office on
    positions provided to the OPM and         whether annuity payments are part of an
    Congress informing them that the          employee’s total compensation and
    officer served in a critical position.    subject to compensation caps.
   Finally, management did not include
    annuity payments in another officer’s     Subsequent to receiving management’s
    compensation cap computation, thus        written comments, they acknowledged
    under-reporting the total amount          the fundamental disagreement with the
    paid. Not only was the officer not        interpretation of the law. As such, they
    included in the list of critical          agreed to seek advice from the
    positions, this officer’s total           Department of Justice’s (DOJ) Office of
    compensation exceeded the highest         Legal Counsel to resolve all the issues
    level of allowable salary for critical    identified in this report. We agree that
    positions.                                an advisory opinion from the DOJ’s
                                              Office of Legal Counsel will better
As a result, during CY 2011, the              resolve all of the issues and other
Postal Service paid $110,011 above the        matters than our original
caps.                                         recommendations. Subsequent to
                                              issuance of the final report,
In response to our CY 2010 audit,             management will work with us on the
management amended an officer’s               precise legal questions to be submitted.
employment agreement to more clearly
link the incentive award to performance.      Link to review the entire report
However, because the amount of the
October 19, 2012

MEMORANDUM FOR:            PATRICK R. DONAHOE
                           POSTMASTER GENERAL




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Systems and Accountability

SUBJECT:                   Audit Report – Officer Compensation for
                           Calendar Year 2011 (Report Number FT-AR-13-001)

This report presents the results of our audit of Officer Compensation for Calendar Year
2011 (Project Number 12BM002FT001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Louis J. Giuliano, Chair, Audit and Finance Committee
    Ellen C. Williams, Chair, Compensation & Management Resources Committee
    Joseph Corbett
    Anthony J. Vegliante
    Julie S. Moore
    Scott J. Davis
    Corporate Audit and Response Management
Officer Compensation for Calendar Year 2011                                                                        FT-AR-13-001



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Compensation Cap.......................................................................................................... 3

Other Matters to Be Reported ......................................................................................... 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Management’s Comments ........................................................................ 12
Officer Compensation for Calendar Year 2011                                                           FT-AR-13-001



Introduction

This report presents the results of our audit of calendar year (CY) 2011 compensation
paid or deferred 1 to officers 2 of the U.S. Postal Service (Project Number
12BM002FT001). The objective of this portion of the fiscal year (FY) 2012
U.S. Postal Service Financial Statements Audit – Eagan Accounting Services – was to
determine whether the Postal Service complied with the Postal Accountability and
Enhancement Act of 2006 (Postal Act of 2006), Postal Service policies and guidelines,
and IRS regulations for CY 2011 compensation paid to officers. We will continue to
provide annual reports as part of our ongoing financial statement audit work. This audit
addresses financial risk. See Appendix A for additional information about this audit.

The passage of the Postal Act of 2006 amended 39 U.S.C. and revised the cap
imposed on total compensation payable to Postal Service employees. Compensation
includes annual salary, merit lump sum payments, 3 bonuses, awards, and annuity
payments. Table 1 explains the three compensation levels for CY 2011. 4

                              Table 1: CY 2011 Compensation Levels

Level                                           Description                                                Dollar
                                                                                                           Limit
    I     No officer or employee shall be paid compensation at a rate in excess of the rate for           $199,700
          Level I of the Executive Schedule under §5312 of Title 5 [39 U.S.C. §1003(a)].
    II    The Postal Service may establish one or more programs to provide bonuses or                     $230,700
          other rewards to officers and employees of the Postal Service in senior executive or
          equivalent positions. Under any such program, the Postal Service may award a
          bonus or other reward in excess of the limitation set forth in the last sentence of
          §1003(a), if such program has been approved. Any such award or bonus may not
          cause the total compensation of such officer or employee to exceed the total annual
          compensation payable to the vice president under §104 of Title 3 as of the end of
          the calendar year in which the bonus or award is paid. If the Postal Service wishes
          to have the authority to award bonuses or other rewards in excess of the limitation
          set forth in the last sentence of §1003 (a), the Postal Service shall make an
          appropriate request to the Board of Governors (Board), and the Board shall approve
          any such request if the Board certifies, for the annual appraisal period involved, that
          the performance appraisal system for affected officers and employees of the Postal
          Service (as designed and applied) makes meaningful distinctions based on relative
          performance. [39 U.S.C. §3686(a) & (b)].




1
  Compensation credited but not disbursed in CY 2011.
2
  Defined in this report as Postal Career Executive Schedule II employees.
3
  The performance-based lump sum payment included as part of the Postal Service’s National Performance
Assessment program (or its annual pay-for-performance incentive program).
4
  In 2011, seven Postal Service employees were paid at Level II, five were paid at Level III, and one was paid above
Level III.
                                                          1
Officer Compensation for Calendar Year 2011                                                        FT-AR-13-001




Level                                          Description                                              Dollar
                                                                                                        Limit
    III   Notwithstanding any other provision of law, the Board may allow up to 12 officers or         $276,840
          employees of the Postal Service in critical senior executive or equivalent positions
          to receive total compensation in an amount not to exceed 120 percent of the total
          annual compensation payable to the vice president under §104 of Title 3 as of the
          end of the calendar year in which such payment is received. For each exception
          made under this subsection, the Board shall provide written notification to the
          director of the Office of Personnel Management (OPM) and congress within 30 days
          after the payment is made setting forth the name of the officer or employee
          involved, the critical nature of his or her duties and responsibilities, and the basis for
          determining that such payment is warranted [(39 U.S.C. § 3686(c)]
Source: 39 U.S.C. §§1003(a) and 3686(b) and (c).

Postal Service officers may appropriately receive additional benefits not subject to the
compensation cap, including increased annual leave exchange hours, free financial
counseling, parking, life insurance, health benefits, and other perquisites. 5 Also, in
certain limited cases, officers have contractual incentive benefits that, when not tied to
any performance goals and measures, are subject to the compensation cap in the year
they are earned.

Conclusion

Although the Postal Service complied with Postal Service policies and guidelines and
IRS regulations for CY 2011, it did not always comply with annual officer compensation
caps as stated in the Postal Act of 2006. We believe failure to comply is a result of its
misinterpretation of the relevant statutory authority in the Postal Act of 2006. Our
findings are all tied to this misinterpretation.

Of the 38 officers reviewed, we identified three officers whose compensation exceeded
or otherwise failed to comply with the compensation caps imposed by the Postal Act of
2006. As shown in Table 2, we identified one officer who received a lump sum
re-assignment incentive that was not tied to performance; one officer whose position
was not included on the list of critical senior executives provided to the OPM and
congress; and one officer whose annuity6 was not considered as part of the basic salary
for computing the compensation cap.




5
  The Postal Service offers driver and personal security services through the U.S. Postal Inspection Service
(Inspection Service) to the postmaster general.
6
  Annuity benefits received by re-employed annuitant from OPM. A re-employed annuitant is a person who is
receiving a Civil Service Retirement System or Federal Employee Retirement System retirement annuity and, at the
same time, is earning a paycheck as a federal employee.


                                                        2
Officer Compensation for Calendar Year 2011                                                           FT-AR-13-001




                                      Table 2: Compensation Data

                          Incentive      Total                                                   Payment
    Officer Basic Salary  Payment     Compensation                               Cap            Above Cap
       1        $183,861    $20,000 7     $203,861                             $199,700             $4,161
       2        $230,000          $0      $230,000                             $199,700             30,300
                        8           9
       3       $245,000     $61,250       $306,250                            $230,700 10           75,550
    Total Payment Above Cap                                                                       $110,011
Sources: Employee Master File and Eagan Accounts Payable Applications.

As a result, during CY 2011, the Postal Service paid a total of $110,011 above the
compensation cap imposed by the Postal Act of 2006. See Appendix B for monetary
impact.

We noted that the manager, Compensation, sometimes consults with Postal Service
General Counsel on compensation issues. We take no exception to that practice in
general. However, the General Counsel should have been designated as a critical
senior executive or equivalent position. If issues arise specifically for that position, there
could be a conflict of interest, whether in fact or appearance. We suggest the
Postal Service General Counsel refrain from providing advice on any compensation
issues related specifically to that position to avoid conflict of interest concerns.

Compensation Cap

Of the 38 officers reviewed, we identified three whose compensation exceeded or
otherwise failed to comply with the compensation cap for CY 2011 imposed by the
Postal Act of 2006. Specifically:

     We identified one officer who received a lump sum reassignment incentive that was
      not tied to performance. The incentive payment of $20,000 added to the officer’s
      basic salary of $183,861 brought the total annual compensation to $203,861.
      Bonuses or awards not directly tied to performance are subject to the cap and must
      be considered wages in the year they are earned, even if that compensation is
      deferred to a later date. Therefore the Postal Service paid the officer $4,161 above
      the cap.


7
  Lump-sum reassignment incentive award on promotion.
8
  The employment agreement of this officer stated the officer will be compensated with the basic salary paid at the
annual rate of $245,000. It also defined basic salary as the sum of the annual salary ($113,048) and the annuity
amount ($131,952).
9
  Performance incentive award of 25 percent of basic salary.
10
   This cap is applicable if the Board determines that a bonus or award is based on a performance appraisal system
that makes meaningful distinctions based on relative performance. Management recently revised this officer’s
employment agreement to more clearly link the incentive award to performance. However, the U.S. Postal Service
Office of Inspector General (OIG) is unsure the revision reflects a true performance measure and suggests
management re-assess the language. Refer to the Other Matters to Be Reported section of this report.


                                                         3
Officer Compensation for Calendar Year 2011                                                           FT-AR-13-001



    We identified one officer whose position was not included on the list of critical senior
     executives provided to the OPM and congress. Management advised us in
     discussions that this officer occupied a critical senior executive or equivalent
     position, to be paid total annual compensation of up to 120 percent of the total
     annual compensation payable to the vice president of the U.S. However, this officer
     was excluded from the list provided to the OPM and congress 11 because
     management believed the requirement only exists for officers who exceed the
     second salary cap of $230,700. The Postal Act of 2006 12 requires written notification
     to the OPM and congress of all critical positions made under that provision, not just
     those that exceed the second salary cap. Also, officers may only be paid in excess
     of the Executive Level 1 pay cap if they receive a bonus based on relative
     performance or are listed as one of the critical positions. As a result, the Postal
     Service paid this officer $30,300 above the cap of $199,700.

    We identified one officer whose annuity was not included as part of the basic salary
     for computing the compensation cap. Management informed us that this officer
     occupied a critical senior executive or equivalent position. However, the Postal
     Service excluded this officer from the list provided to the OPM and congress
     identifying critical employees or positions. The officer received an annual salary of
     $113,048, an annuity payment of $131,952, and a performance-related incentive
     payment of $61,250 for total compensation of $306,250. The officer’s employment
     agreement stated the officer would be compensated with the basic salary paid at the
     annual rate of $245,000. It also defined basic salary as ‘the sum of annual salary
     ($113,048) and the annuity amount ($131,952).’ Management contended that the
     annuity payment should be excluded from the pay cap. They advised that they used
     the same method to calculate compensation subject to the cap as in FY 2010, and
     the OIG’s previous report did not include annuity payments in the calculation of the
     salary cap. Further, they verified their approach through outside tax counsel.

     The OIG did not report the issue with this officer previously; however, the officer’s
     total compensation did not exceed the $199,700 salary cap during CY 2010. 13
     Management also informed us that this officer occupied a critical senior executive or
     equivalent position. However, the Postal Service excluded this officer from the list
     provided to the OPM and congress identifying critical employees or positions.
     Management believed the requirement only exists for officers that exceed the Level
     II salary cap of $230,700. However, the Postal Act of 2006 requires written
     notification to the OPM and congress for all critical positions made under that
     provision, not just those that exceed the second salary cap. As a result, the
     Postal Service paid this officer $75,550 above the cap of $230,700. Furthermore, by
     failing to include the annuity payments in the calculation of the cap, this executive

11
   Memorandum dated January 23, 2012.
12
   Section 3686(c), Bonus Authority.
13
   During CY 2010, the officer received a base salary of $39,132, a merit lump sum of $13,000, and a recruitment
bonus of $95,000, In addition, the officer received an annuity payment of $131,952. Since the officer began working
at the Postal Service on August 14, 2010, only a prorated portion of the total annuity payment ($45,676) was included
in the salary cap calculation. Therefore, the total compensation was $192,808, which was below the first cap of
$199,700 established for CY 2010.


                                                          4
Officer Compensation for Calendar Year 2011                                   FT-AR-13-001



   received compensation in excess of the maximum allowable limit for Level III,
   $276,840.

Other Matters to Be Reported

At the end of FY 2011, management amended an officer’s employment agreement to
more clearly link the incentive award to performance. Specifically, they added verbiage
“. . .provided the Postmaster General determines (the officer) discharged his duties in a
satisfactory manner during the relevant twelve-month period.” However, because the
amount of the award is set, in advance, by contract, we believe it is neither part of an
“appraisal system” nor a result of any evaluation of “relative performance.” This change
to the language does not address the concerns we raised last year. We suggest
management reassess language in the agreement to determine whether it makes
meaningful distinctions as to the requirements necessary.

Recommendations

We recommend the postmaster general:

1. Coordinate with the Board of Governors to ensure the Postal Service reports to the
   Office of Personnel Management and congress a complete list of critical senior
   executive or equivalent positions allowed to receive total compensation in an amount
   not to exceed 120 percent of the total annual compensation payable to the vice
   president of the U.S.

2. Request an interpretation from the Government Accountability Office on whether
   annuity payments are considered in an employee’s total compensation and subject
   to the Postal Act of 2006 compensation caps.

Management’s Comments

Management disagreed with recommendation 1 and its corresponding monetary impact
because they believe it is based on an incorrect finding that officer compensation
exceeded the statutory compensation cap for FY 2011. They stated they already have a
process to ensure the Postal Service adheres to the statutory compensation caps. They
also stated that they coordinated with the Board on reporting requirements after the
Postal Act of 2006 was enacted and since then they have continuously followed the
same process for notifying congress and the OPM. In support of their position that the
compensation cap was not exceeded, they provided their interpretations of 39 U.S.C.
§3686.

Management agreed with recommendation 2, in part, and stated that the interpretation
should come from the Department Of Justice’s (DOJ) Office of Legal Counsel since they
are responsible for interpreting the law affecting a component of the federal
government.




                                              5
Officer Compensation for Calendar Year 2011                                    FT-AR-13-001



Management stated that the general counsel does not provide advice on matters
concerning her salary and benefits but advises the Board and management on a variety
of legal matters, including compensation-related legal questions. Refraining from this
would discharge her from her full responsibilities. When it is necessary to resolve legal
issues affecting the general counsel's salary and benefits, the Law Department uses
outside counsel.

In addition, regarding the language in an officer's agreement, management believes it
satisfies the pertinent requirements.

Subsequent to receipt of management’s written comments, they acknowledged that the
differences stem from a fundamental disagreement with the interpretation of the law and
not from the failure of systems or a lack of attention to detail. Management agreed to
seek the advice of the DOJ’s Office of Legal Counsel on these matters. Also,
subsequent to issuance of the final report, management will work with our office on the
precise legal questions to be submitted. See Appendix C for management’s comments
in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s alternative action described for recommendation 2 in
the report and also in subsequent discussions responsive to both recommendations.
We agree that having the DOJ’s Office of Legal Counsel address these concerns would
be beneficial. We will work with the Postal Service on the specific questions to be
submitted.

In reviewing management’s response, we have a fundamental disagreement on the
proper interpretation of the law described above. The OIG interprets the statute as
requiring any compensation paid above Level I ($199,700) be in the form of a bonus or
other award, the receipt and amount of which is based solely and specifically on relative
performance. This limitation must be applied to any bonus or award and may take an
executive’s total compensation from $199,700 to the upper limit of Level II
($230,700). Additionally, the Postal Service may designate up to 12 key officers that
may receive any form of compensation (whether bonus or regular salary) up to the limit
of Level III ($276,840), as long as those key officers are identified to OPM and
congress. Under this analysis, no employee, except a designated key officer, may
receive a regular salary (exclusive of bonuses or other awards based on performance)
of more than the $199,700.

The Postal Service interprets this statute differently and has opined that,
notwithstanding the fact that this section is titled Bonus Authority, 39 U.S.C. §3686 has
given it the authority to give regular salaries up to the limit of Level II ($230,700), as
long as it generally has an evaluation system that makes distinctions based on
performance. These divergent interpretations lead us to agree that an advisory opinion
will better resolve the issues and other matters than our original recommendations to
coordinate with the Board regarding reporting critical senior executive or equivalent



                                              6
Officer Compensation for Calendar Year 2011                                  FT-AR-13-001



positions and to coordinate with the Government Accountability Office on whether
annuity payments are considered in an employee’s total compensation and subject to
the Postal Act of 2006 compensation caps.

The intent of our comments on the general counsel providing advice on compensation
issues specifically related to that position was to avoid conflict of interest concerns,
whether in fact or appearance. The Law Department’s use of outside counsel familiar
with federal employment and compensation issues when it is necessary to resolve legal
issues affecting the general counsel's salary and benefits should alleviate those
concerns.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                              7
Officer Compensation for Calendar Year 2011                                                     FT-AR-13-001



                               Appendix A: Additional Information

Background

Passage of the Postal Act of 2006 amended 39 U.S.C. by imposing guidelines on total
compensation for the Postal Service. Compensation includes annual salary, merit lump
sum payments, 14 bonuses, awards, and annuity payments. Under this provision, the
total compensation payable to any employee is established at three levels:

    The first cap provides that no officer or employee may be paid compensation at a
     rate in excess of the rate for Level I of the Executive Schedule. This compensation
     limit was set at $199,700 for CY 2011.

    With the approval of the Board, however, the Postal Service may develop a program
     to award a bonus or other reward in excess of the above compensation cap, as long
     as this does not cause the total annual compensation paid to the officer to exceed
     the total annual compensation payable to the vice president of the U.S. at the end of
     the calendar year in which the bonus or award is paid. In approving any such
     program, the Board must determine that the bonus or award is based on a
     performance appraisal system that makes meaningful distinctions based on relative
     performance. This total compensation cap was $230,700 for CY 2011.

    In addition, the Board may allow up to 12 officers or employees of the
     Postal Service, in critical senior executive or equivalent positions, to be paid a total
     annual compensation of up to 120 percent of the total annual compensation payable
     to the vice president of the U.S. as of the end of the calendar year in which such
     payment is received. This compensation cap was $276,840 for CY 2011.

The Postal Act of 2006 requires written notification to the OPM and congress of each
senior executive or equivalent position designated as critical. On January 23, 2012, the
Board reported the following positions as critical for CY 2011:

    Postmaster general and chief executive officer.
    Chief financial officer and executive vice president.
    Chief human resources officer and executive vice president.
    Chief operating officer and executive vice president.
    Chief information officer and executive vice president.

In addition, the Board identified the following three positions as critical but did not notify
the OPM and congress:

    Deputy postmaster general.
    President and chief marketing/sales officer.
    General counsel and executive vice president.

14
  The performance-based lump sum payment included as part of the Postal Service’s National Performance
Assessment program (or its annual pay-for-performance incentive program).


                                                      8
Officer Compensation for Calendar Year 2011                                                           FT-AR-13-001



Postal Service officers may receive additional benefits appropriately not subject to the
compensation cap, including increased annual leave exchange hours, free financial
counseling, parking, life insurance, health benefits, and other perquisites. 15 Also, in
certain limited cases, officers have contractual incentive benefits that, when not tied to
any performance goals and measures, are subject to the compensation cap in the year
they are earned.

In certain limited cases, the Postal Service entered into agreements to provide
executive retention bonuses that may take the form of deferred compensation. As
shown in Table 3, three active and two inactive officers have outstanding balances of
deferred compensation.

      Table 3: Cumulative Deferred Compensation as of December 31, 2011

                                                                 Cumulative
      Officer                       Name                       Deferred Balance                    Status
         1                  Anthony J. Vegliante                         $61,700                   Active
         2                  Joseph Corbett                                 69,996                  Active
         3                  Patrick R. Donahoe                              7,376                  Active
         4                  John E. Potter                               786,301                  Inactive
         5                  Ross Philo                                   642,999                  Inactive
Total of deferred
balance                                                                    $1,568,372
Source: Eagan Accounts Payables System (EAPS).

Objective, Scope, and Methodology

The objective of this portion of the FY 2012 U.S. Postal Service Financial Statements
Audit – Eagan Accounting Services – was to determine whether the Postal Service
complied with the cap, Postal Service policies and guidelines, and IRS regulations for
CY 2011 compensation for officers.

To achieve our objective, we:

    Interviewed Postal Service personnel.
    Reviewed compensation information from payroll systems.
    Reviewed bonus, award, and deferred compensation information from EAPS.
    Reviewed IRS guidelines for reporting wages and taxes.
    Reviewed employment agreements of three officers.

We conducted this portion of the audit from March through October 2012, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
15
  The Postal Service offers driver and personal security services through the Inspection Service to the postmaster
general.


                                                          9
Officer Compensation for Calendar Year 2011                                        FT-AR-13-001



evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 16, 2012, and included their
comments where appropriate.

We relied on computer-generated data from payroll systems and EAPS for testing
compensation, awards, bonuses, and annual leave exchange. We assessed the
reliability of this data by reviewing existing information about the data and the system
that produced them and using advanced data analysis techniques to test data gathered
from these systems. We also performed specific internal control and transaction tests,
to include tracing selected information to supporting source records. As such, we
determined this data to be sufficiently reliable for the purpose of this report.

Prior Audit Coverage

                                                              Final
                                                             Report           Monetary
             Report Title                Report Number        Date             Impact
  Officer Compensation for               FT-AR-11-011        9/23/11           $59,174
  Calendar Year 2010
  Report Results:
  The Postal Service did not always comply with the cap and with IRS regulations. An officer
  exceeded the cap because he received a retention bonus not tied to performance. The
  Postal Service also did not report Social Security wages or withhold and pay taxes on
  deferred compensation for one officer and did not timely report Medicare wages or timely
  withhold and pay taxes on deferred compensation for one prior and four current officers.
  We recommended management develop and implement policies and procedures to ensure
  adherence to the cap, report and pay the correct amount of Social Security and Medicare
  wages and taxes owed, establish accounts receivables for officers’ portions of Social
  Security and Medicare taxes on deferred compensation, and modify the payroll system to
  calculate Social Security and Medicare taxes on deferred income. Management disagreed
  that the Postal Service exceeded the cap but agreed to link enhanced compensation to
  performance in current and future agreements. They also agreed to report and submit
  corrected wages and taxes, establish accounts receivables for the employees’ portion of
  these taxes, and modify processes and/or systems to calculate appropriate taxes.
                                                              Final
                                                             Report           Monetary
             Report Title                Report Number        Date             Impact
  Officer Compensation for               FT-WP-10-001        4/12/10             None
  Calendar Year 2009
  Report Results:
  The Postal Service complied with the compensation limits stated in the Postal Act of 2006.
  We made no recommendations.




                                               10
Officer Compensation for Calendar Year 2011                                                           FT-AR-13-001




                                     Appendix B: Monetary Impact

            Recommendation                           Impact Category                        Amount
                  1                                  Questioned Cost 16                     $110,011




16
  Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable. Usually a result of historical events.


                                                         11
Officer Compensation for Calendar Year 2011                    FT-AR-13-001



                           Appendix C: Management’s Comments




                                              12
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              13
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              14
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              15
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              16
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              17
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              18
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              19
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              20
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              21
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              22
Officer Compensation for Calendar Year 2011        FT-AR-13-001




                                              23
